OIG Investigative Reports, Press Release Johnstown, PA May 09, 2011: The Former Superintendent of Glendale, PA School District Pleads Guilty to Federal Program Theft
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigative Report
Department of Justuce
United States Attorney David J. Hickton
Western District of Pennsylvania
FOR IMMEDIATE RELEASE
MONDAY , MAY 09, 2011
WWW.JUSTICE.GOV/USAO/PAW
The Former Superintendent of Glendale, PA School District Pleads Guilty to Federal Program Theft.
JOHNSTOWN, Pa. - A resident of North Salt Lake, Utah, pleaded guilty in federal court to a charge of federal program theft, United States Attorney David J. Hickton announced today.
Dr. Dennis L. Bruno, 59, the former Superintendent of Glendale School District, and now of North Salt Lake, Utah, pleaded guilty to one count before United States District Judge Kim R. Gibson.
In connection with the guilty plea, the court was advised that from Oct. 3, 2005, to July 18, 2006, Bruno, in his capacity as Superintendent of Glendale School District, intentionally misapplied $49,600 of federal funds from the Fund for the Improvement of Education program, a program funded by the United States Department of Education. Additionally, in his plea agreement with the
United States, Dr. Bruno stipulated and agreed that he was also involved in a conspiracy to commit an offense against the United States relating to the federally funded E-Rate Program of the Federal Communications Commission (FCC). The E-Rate Program was created by Congress in the Telecommunications Act of 1996 and is administered by the Universal Service Administrative Company (USAC) under the auspices of the FCC. The program provides subsidies to economically disadvantaged schools and libraries for the cost of internet access and telecommunications services, as well as internal computer and communications networks. Dr. Bruno agreed and stipulated that he conspired with others to obtain E-Rate Program money in the amount of $414,421.92.
Judge Gibson scheduled sentencing for _____________ ,2011. The law provides for a total sentence of 10 years in federal prison, a fine of $250,000 or both. Under the Federal Sentencing Guidelines, the actual sentence imposed would be based upon the seriousness of the offenses and the prior criminal history, if any, of the defendant.
Assistant United States Attorney Stephanie L. Haines is prosecuting this case on behalf of the government.
The Pennsylvania Office of the Auditor General Special Investigations Office, the United States Department of Education Office of Inspector General, and the Laurel Highlands Resident Agency of the Federal Bureau of Investigation conducted the investigation that led to the prosecution of Bruno.
###
Top
Printable view
Last Modified: 05/11/2011
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov